The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Deanna Tanner Okun, Chairman
                                        Irving A. Williamson, Vice Chairman
                                        Charlotte R. Lane
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Dean A. Pinkert
OFFICE OF INSPECTOR GENERAL




    UNITED STATES INTERNATIONAL TRADE COMMISSION

                            WASHINGTON, DC 20436

December 1, 2010                                                     OIG-HH-033

Chairman Okun:

This memorandum transmits the Management Letter Report (OIG-ML-11-06)
associated with the audit of the Commission’s financial statements for fiscal year
2010. We contracted with the independent certified public accounting firm, Castro &
Company LLC, to conduct the audit. Pursuant to the contract, this management letter
is provided to the Commission identifying weaknesses that were not included in the
Report on Internal Control.

A draft of the letter was provided to you for comment and your comments are
included in their entirety with the report.

The Castro & Company’s Management Letter Report contains twenty-five
recommendations for corrective action. In the next 30 days, please provide me with
your management decisions describing the specific actions you will take to
implement each recommendation.

Thank you for the cooperation and courtesies extended to both Castro & Company
and my staff during their review.

Sincerely,



Philip M. Heneghan
Inspector General
U.S. INTERNATIONAL TRADE COMMISSION




  Fiscal Year 2010 Financial Statement Audit

         Management Letter Report
                                                                                 2121 Eisenhower Ave.
                                                                                 Suite 606
                                                                                 Alexandria, VA 22314
                                                                                 Phone: 703.229.4440
                                                                                 Fax: 703.859.7603
                                                                                 www.castroco.com

November 8, 2010

Inspector General
U.S. International Trade Commission


We have audited the financial statements of the U.S. International Trade Commission (ITC) as of
and for the year ended September 30, 2010, and have issued our report thereon dated November 8,
2010. The report states except for Undelivered Orders and other related accounts discussed therein,
we expressed an opinion on the balance sheet as of September 30, 2010, and the related statements
of net cost, changes in net position, and budgetary resources for the fiscal year then ended.

We noted certain matters involving internal control and other operational matters that are
summarized in this letter. These comments and recommendations, all of which have been discussed
with the appropriate members of management, are intended to improve internal control or result in
other operating efficiencies. These comments are in addition to the material weaknesses presented in
our Independent Auditors’ Report, dated November 8, 2010, included in the FY 2010 ITC Annual
Performance and Accountability Report.

We would be pleased to discuss these comments and recommendations with you at any time. We
would also like to express our appreciation to you and all other ITC personnel who assisted us in
completing our work. We have incorporated ITC’s management responses to our Management
Comment Letter and have also enclosed the full text of ITC’s response letter.

This report is intended solely for the information and use of ITC management, the Office of
Inspector General, and others within the organization and is not intended to be, and should not be,
used by anyone other than these specified parties.


Sincerely,




Castro & Company, LLC




                                                 1
1. Improvement in the Efficiency and Effectiveness of Financial Operations is Needed

OMB Circular No. A-123, Internal Control over Financial Reporting, states, "A factor affecting the
control environment is the agency's organizational structure. It provides management's framework
for planning, directing and controlling operations to achieve agency objectives. A good internal
control environment requires that the agency's organizational structure clearly define key areas of
authority and responsibility and establish appropriate lines of reporting.”

 From FY 2007 to FY 2010 ITC received an increase in funding of nearly $20 million. In addition,
there has been a significant increase in financial reporting requirements placed on Federal agencies.
However, the structure and resources within the Office of Administration have not been reassessed
to determine if the structure and resources are properly aligned to ensure that the agency is
effectively and efficiently accomplishing its financial management responsibilities.

Our testing disclosed numerous control deficiencies in ITC’s financial operations. Many of these
deficiencies were identified during the prior year audit. For example, we noted ITC:

       Staff did not have a clear understanding of how to perform their assigned responsibilities.

       Did not have a comprehensive policy bulletin or guidance memorandum on financial
       statement preperation. The lack of formalized policies and procedures is a contributing factor
       for the additional control deficiencies described in the Report on Internal Control dated
       November 8, 2010.

       Had not established a formalized timeline for completing key processes and controls related
       to the financial statement process.

OMB Circular No. A-136, Financial Reporting Requirements, “preparation of the annual financial
statements is the responsibility of the agency’s management. In carrying out this responsibility, each
agency chief financial officer should prepare a policy bulletin or guidance memorandum that guides
the agency’s fiscal and management personnel in the preparation of the annual financial statements.”

The existence of written procedures will provide structure and accountability for financial
operations. Without such procedures, ITC management increases the risk that activities are not
carried out properly.

Recommendations:

We recommend that ITC’s management:

   1. Assess the Office of Administration’s structure to determine the resources needed to
      accomplish the day-to-day tasks.
   2. Review and revise as necessary the roles and responsibilities of each component level of the
      Office of Administration and ensure that they are clearly articulated in ITC guidance.
   3. Review its interagency agreement with the Department of Interior, National Business Center
      (NBC) to ensure the proper services are being received.
   4. Assess the cost-benefit of outsourcing the processing of accounting transactions.

                                                  2
   5. Develop an accounting manual that documents all procedures performed by the Office of
      Finance. The manual should outline responsibilities, timelines, applicable laws and
      regulations, and detailed steps of how to perform a specific procedure.
   6. Monitor and document compliance with relevant laws and regulations.


2. Policies and Procedures Need to Be Fully Documented

We noted that the ITC has not fully documented its policies and procedures regarding financial
management. Written policies and procedures are essential to the effective management of ITC’s
operations. At a minimum, the accounting policies and procedures should sufficiently incorporate
the requirements of: (1) the Accountability of Tax Dollars Act of 2002; (2) OMB Circular No. A-
136, Financial Reporting Requirements; (3) OMB Circular No. 123, Management’s Responsibility
for Internal Control; (4) the accounting standards issued by the Federal Accounting Standards
Advisory Board; and (5) GAO Principles of Federal Appropriations Law.

According to OMB Circular No. A-123, Management’s Responsibility for Internal Control,
management has a fundamental responsibility to develop and maintain effective internal control.
Effective internal control provides assurance that significant weaknesses in the design or operation
of internal control, that could adversely affect the agency’s ability to meet its objectives, would be
prevented or detected in a timely manner.

Policies and procedures are tools to help program and financial managers achieve results and
safeguard the integrity of their programs. Internal control should be an integral part of the entire
cycle of planning, budgeting, management, accounting, and auditing.

Without written policies and procedures, ITC increases its risk that the intended objectives are not
being achieved as expected.

Recommendations:

We recommend that ITC’s management:

   7. Finalize written accounting policies and procedures to ensure that ITC fully complies with
       applicable laws, regulations, and other authoritative guidance.
   8. Update or establish and document policies related to the procurement process, including
       proper file documentation to support contract actions/decisions.
   9. Update or establish and document policies for monitoring obligations and related expenses.
   10. Update or establish and document policies for processing of invoices that include the
       recognition of and recording of accruals when services and/or goods have been received and
       require payment of invoices within 30 days.
   11. Update or establish and document policies for processing of deferred expenses, including the
       recognition of, and recording of, advances and prepayments.
   12. Document procedures to implement the policies that require preparation of a detailed
       checklist to be used by the Contracting Officer and personnel involved with the procurement
       action to ensure that for all future procurement actions, the contract file includes all the
       required documentation to support the contract actions/decisions and its compliance with the
       FAR.
                                                  3
   13. Document procedures to implement the policies established for monitoring operating
       expenses.
   14. Document procedures to implement the policies established for monitoring and reporting of
       the Temporary Relief Bonds Receipts fund in accordance with accounting standards.
   15. Document procedures to implement the policies established for calculating the Federal
       Employees’ Compensation Act (FECA) Liability.
   16. Document procedures to implement the policies established for ongoing analysis and
       assessment of new or revised laws and regulations, associated with the financial statements,
       to determine their applicability to the ITC.
   17. Provide training for processing accounting procedures to ensure transactions are properly
       classified and reported.
   18. Provide training for monitoring of operating expenses.
   19. Provide training for reviewing transactions related to deferred expenses.
   20. Provide training for reviewing, approving or processing invoices.
   21. Provide training for procurement files and the requirements of the FAR and ITC’s
       procurement policies.


3. Improvement Implementing the Requirements of FMFIA and OMB Circular No. A-123 is
   Needed

During our review of ITC’s documentation supporting its assurance provided under the Federal
Managers’ Financial Integrity Act (FMFIA) of 1982, we noted the following:

       Inconsistencies existed in the documentation on the FMFIA checklists prepared by the
       program managers. For example, there were instances where a response was selected, but
       the related comment did not support the response

ITC did not have documented procedures to ensure full compliance with the requirements of
FMFIA, as outlined in the OMB Circular No. A-123. The FMFIA states:

       To ensure compliance with the requirement of subsection (a)(3) of this section,
       internal accounting and administrative controls of each executive agency shall be
       established in accordance with standards prescribed by the Comptroller General, and
       shall provide reasonable assurances that –
           obligations and costs are in compliance with applicable law;
           funds, property, and other assets are safeguarded against waste, loss, unauthorized
           use, or misappropriation; and
           revenues and expenditures applicable to agency operations are properly recorded
           and accounted for to permit the preparation of accounts and reliable financial and
           statistical reports and to maintain accountability over the assets.

OMB Circular No. A-123, Management’s Responsibility for Internal Control states:

       Internal control over financial reporting should assure the safeguarding of assets from
       waste, loss, unauthorized use, or misappropriation as well as assure compliance with
       laws and regulations pertaining to financial reporting. Financial reporting includes
       annual financial statements of an agency as well as other significant internal or
                                                  4
       external financial reports. Other significant financial reports are defined as any
       financial reports that could have a material effect on a significant spending, budgetary
       or other financial decision of the agency or that is used to determine compliance with
       laws and regulations on the part of the agency. An agency needs to determine the
       scope of financial reports that are significant, i.e., which reports are included in the
       assessment of internal control over financial reporting. In addition to the annual
       financial statements, significant reports might include: quarterly financial statements;
       financial statements at the operating division or program level; budget execution
       reports; reports used to monitor specific activities such as specific revenues,
       receivables, or liabilities; reports used to monitor compliance with laws and
       regulations such as the Anti-Deficiency Act, etc.

By not having documented procedures in place, ITC management increases its risk of
noncompliance with FMFIA.

Recommendations:

We recommend that ITC’s management:

   22. Update guidance to clearly identify the specific programs/offices required to complete an
       assessment.
   23. Train ITC program managers in the procedures required to ensure ITC is achieving the
       intended objectives of FMFIA and OMB Circular No. A-123.


4. Procedures Surrounding Time and Attendance Need to be Strengthened

During testing of accrued payroll, we noted the following:

       For four of the six samples tested with negative annual leave balances, insufficient
       documentation was provided to support proper approval and authorization of the advanced
       leave taken.

       For one out of six samples, no documentation was provided to support proper approval and
       authorization of advanced leave taken.

       For one out of six samples, advanced leave was not collected prior to an employee separating
       from the agency.

Controls over T&A information should provide reasonable assurance that such information (1) is
recorded completely, accurately, and as promptly as practicable, (2) relates to authorized individuals,
(3) reflects actual work performed and leave taken or other absences during authorized work- hours
and periods, (4) is sufficiently detailed to allow for verification, (5) complies with legal
requirements, and (6) is supported by recorded evidence of supervisory review and approval.

The supervisor has primary responsibility for authorizing and approving T&A transactions.
Supervisors and timekeepers should be aware of the work time and absence of employees for whom
they are responsible. To help ensure proper recording of T&A information, completed T&A records
                                                   5
should be reviewed and approved on an appropriate basis by the supervisor (or other equivalent
official).

The inadequate/ineffective review over the time and attendance process can result in the transmittal
of incorrect payroll information. It also may enable an employee to intentionally or inadvertently
falsify timesheet information. Further, this also has an effect of potentially misstating the accrued
payroll and benefits balance that appears on the balance sheet.

Without written policies and specific procedures for ITC employees, supervisors, and Human
Resources staff to follow, on advancing leave, ITC increases the risks of non-compliance with
applicable laws and regulations, and the possibility that a material error or fraud may not be
prevented or detected and corrected timely.

Recommendations:

We recommend that ITC’s management:

   24. Establish and distribute procedures for authorizing employees to take advanced leave.
   25. Train ITC personnel on obtaining and maintaining proper supporting documentation
       submitted by employees to authorize advanced leave.


Status of Prior Year Management Letter Comments

The FY 2009 management letter identified the following control deficiencies:


                   Finding
           Identified in FY 2009                       Status in FY 2010
         Policies and Procedures       Repeat Condition
         Manual Journal Vouchers       Incorporated into material weakness in the Report
                                       on Internal Control dated November 8, 2010
         Procurement                   Raised to a material weakness in the Report on
                                       Internal Control dated November 8, 2010
         Obligations/Expenditures      Raised to a material weakness in the Report on
                                       Internal Control dated November 8, 2010
         Custodial Activity            Resolved
         Performance Measures          Resolved



Management Response:

ITC’s management concurs with the deficiencies identified and described within this report. See
attached response from the Commission’s Chairman.



                                                  6
Chairman




           UNITED STATES INTERNATIONAL TRADE COMMISSION

                              WASHINGTON, DC 20436

                                   November 29, 2010


Thomas Castro, Partner
Castro and Company, LLC
2121 Eisenhower Avenue, Suite 606
Alexandria, VA 22314

Dear Mr. Castro:

The Draft Management Letter Report identified four areas for improvement. I concur
with your assessment that the Commission needs to improve the efficiency and
effectiveness of financial operations; that we need to fully document our policies and
procedures; that we need to improve our method of implementing the requirements of
FMFIA and OMB Circular No. A-123; and that we need to strengthen our procedures
surrounding time and attendance.

Beginning with your reports on our 2009 financial statements, which highlighted the
financial management deficiencies and challenges that the Commission faced, we began
developing an aggressive and comprehensive strategy to address these findings as well as
the material weaknesses identified in your Report on Internal Control.

We recognize that we have much more to do and will aggressively work to solve the
problems you have identified.

                                     Sincerely,



                                     Deanna Tanner Okun
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870’s. It is a cylindrical, rotating slide
rule able to quickly perform complex mathematical calculations involving roots and powers quickly. The instrument
was used by architects, engineers, and actuaries as a measuring device.
